<html>
<title> - WHITE HOUSE OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND CAMPAIGN FUND-RAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 WHITE HOUSE OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND 
    CAMPAIGN FUND-RAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                           Serial No. 113-122

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

89-384 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 16, 2014....................................     1

                                APPENDIX

Correspondence in July 2014 between The White House and the House 
  Oversight and Government Reform Committee, submitted by 
  Chairman Issa..................................................     8
Testimony of Carolyn Lerner, Special Counsel and Ana Galindo-
  Marrone, Chief, Hatch Act Unit U.S. Office of Special Counsel..    17

 
 WHITE HOUSE OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND 
    CAMPAIGN FUND-RAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?

                              ----------                              


                       Wednesday, July 16, 2014,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to notice, at 10:00 a.m. in 
room 2154, Rayburn House Office Building, the Honorable Darrell 
Issa [chairman of the committee], presiding.
    Present: Representatives Issa, Mica, Farenthold, Lummis, 
Woodall, Lankford, DesJarlais, Chaffetz, Jordan, Bentivolio, 
Meadows, Turner, Gowdy, Cummings, Norton, Connolly, Tierney, 
Lujan Grisham, Welch, Kelly and Horsford.
    Staff Present: Alexa Armstrong, Majority Legislative 
Assistant; Melissa Beaumont; Majority Assistant Clerk; Molly 
Boyl, Majority Deputy General Counsel and Parliamentarian; 
Lawrence J. Brady, Majority Staff Director; Ashley H. Callen, 
Majority Deputy Chief Counsel for Investigations; Sharon Casey; 
Majority Senior Assistant Clerk; Steve Castor, Majority General 
Counsel; John Cuaderes, Majority Deputy Staff Director; Lemar 
Echols, Majority Counsel; Adam P. Fromm, Majority Director of 
Member Services and Committee Operations; Linda Good, Majority 
Chief Clerk; Frederick Hill, Majority Deputy Staff Director for 
Communications and Strategy; Christopher Hixon, Majority Chief 
Counsel for Oversight; Caroline Ingram, Majority Counsel; Ashok 
M. Pinto; Majority Chief Counsel, Investigations; Andrew 
Rezendes, Majority Counsel; Jessica Seale, Majority Digital 
Director; Andrew Shult, Majority Deputy Digital Director; 
Jonathan J. Skladany, Majority Deputy General Counsel; Katy 
Summerlin, Majority Press Assistant; Sarah Vance, Majority 
Assistant Clerk; Rebecca Watkins, Majority Communications 
Director; Krista Boyd, Minority Deputy Director of Legislation/
Counsel; Marianna Boyd, Minority Counsel; Aryele Bradford, 
Minority Press Secretary; Susanne Sachsman Grooms, Minority 
Deputy Staff Director/Chief Counsel; Jennifer Hoffman, Minority 
Communications Director; Elisa LaNier, Minority Director of 
Operations; Juan McCullum, Minority Clerk; and Dave Rapallo, 
Minority Staff Director.
    Chairman Issa. Good morning. The committee will come to 
order.
    Today's hearing is on the White House Office of Political 
Affairs: is supporting candidates and campaign fund-raising an 
appropriate use of a government office?
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have the right to know that the 
money Washington takes from them is well spent. Second, 
Americans deserve an efficient and effective government that 
works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they get from the government.
    Our job is to work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is our mission.
    Last night, the committee received a deeply disturbing 
letter from the White House Counsel. The Counsel declared that 
a senior advisor to the President, David Simas, a witness who 
had been subpoenaed to testify here today, was ``immune from 
congressional compulsion to testify.''
    This is at odds with rulings from our Judicial Branch about 
checks and balances. It is directly in conflict with the case 
known as Miers Bolton, a lawsuit brought by the Democrats and 
then-Chairman John Conyers when they were in the majority.
    A federal judge wrote that senior advisors to the President 
of the United States are ``not absolutely immune from 
congressional process.'' Oversight of political activities in 
the White House has frequently been a divisive issue and it has 
been an issue over which this committee has asserted 
jurisdiction and oversight on a bipartisan basis over the last 
four committee chairmen while I have been a member of the 
committee.
    For example, in 2007, former committee Chairman Henry 
Waxman initiated a series of investigations into improper 
political activities in the Bush Administration. During the 
committee's two year investigation, the staff interviewed 18 
political appointees, including President Bush's political 
directors, in other words, the same individual we are not 
getting today, and received nearly 70,000 pages of documents.
    For those who do not know what 70,000 pages of documents 
look like, it is 14 banker boxes filled with documents. Even 
the chairman of the Republican National Committee received a 
subpoena requiring production of emails.
    The committee's current investigation has looked much 
different. It has exercised patience for months and gave the 
White House extensive opportunities to explain concerns through 
briefings and document productions.
    In his first run for President, then Senator Obama 
campaigned on closing the White House Political Office. In 
January 2011, three years into his term, the Office of Special 
Counsel concluded that the White House Office of Political 
Affairs violated laws, namely the Hatch Act, designed to keep 
taxpayers from paying for political activities by government 
workers, the same the White House announced the closure of the 
political office. That office remained closed for almost three 
years.
    In January 2014, the White House announced the reopening of 
its political office. The office's new name is Office of 
Political Strategy and Outreach or OPSO. In March, the 
committee sought information about the relaunch of this 
political office in an effort to continue this committee's 
legacy of overseeing the White House political office.
    This request came as the committee learned that two members 
who served in President Obama's campaign had violated the Hatch 
Act by abusing their positions to aid overtly political 
campaign efforts.
    In March 2012, the United States Labor Secretary Hilda 
Solis, a sitting member of the President's Cabinet, engaged in 
prohibited activity outlined in the Hatch Act. The Los Angeles 
Times reported that Secretary Solis had solicited a donation 
from a subordinate Labor Department employee.
    The committee has now come to have possession of a voice 
mail and I would ask that it be played now.
    [Voice Mail played.]
    Chairman Issa. That recording was a message Secretary Solis 
left on the phone of a subordinate employee at her department 
and was the subject of complaint made to the Office of Special 
Counsel.
    Hatch Act violations have been a problem under all 
Administrations. This makes the claim by this Administration 
that they are doing everything right and should be immune from 
oversight all the more indefensible.
    It is deeply ironic that an Administration claiming to be 
the most transparent ever has resisted oversight of its 
political office and offered less cooperation than its 
predecessors. Today's hearing was intended to be an opportunity 
for Congress to assess how the Administration has tried to 
address the issues raised by the Office of Special Counsel's 
2011 report on political activity.
    That report found OPA was inherent in violation of federal 
law because taxpayer dollars were being used to pay the 
salaries of staff who conducted political activities. 
Surprisingly, the White House did not consult with the Office 
of Special Counsel before reopening OPA, despite the agency's 
critical role in enforcing the Hatch Act.
    The American people have a right to know that the tax 
dollars being spent are not spent on political activities of 
Republicans or Democrats. This committee is obligated to shed 
light on improper use of taxpayer money for political gain. 
This committee has an obligation to look into whether it is 
happening or not.
    We do not and should not need a smoking gun in order to 
look into whether or not taxpayer dollars that are being spent 
are being spent properly. An inherent tenet of this committee 
has always been if taxpayer dollars are being spent, if the 
power of the government is being used, then we have 
jurisdiction. That has not changed and will not change under 
leaders of either party.
    Unfortunately, the most key witness, Mr. Simas, who serves 
as the Director of White House Political Office, has chosen to 
defy the committee's legal obligation and its subpoena. The 
panel of witnesses who are here today, I want to thank you for 
your appearing, particularly Ms. Lerner, who I know had to make 
significant changes in her otherwise busy schedule to be here. 
I would never have brought you here unless I thought we were 
going to have a full complete hearing.
    The committee wrote Mr. Simas on July 3, 2014 to invite him 
to today's hearing. White House Counsel Neil Eggleston, wrote 
to me on July 10, 2014, stating that the request of Mr. Simas 
to testify was not appropriate. I then authorized a subpoena 
for Mr. Simas to appear after staff consultation with the 
Minority. The subpoena was served on July 11, 2014 and the 
White House accepted service.
    As one of our witnesses has chosen not to appear, we will 
be unable to have a full and fair hearing. Nevertheless, we 
will offer opening statements. At this time I would ask 
unanimous consent to place the correspondence between the White 
House and this committee in the record. Without objection, so 
ordered.
    Chairman Issa. Without objection, the Chair is authorized 
to declare recess of the committee at any time. With that, I 
recognize the Ranking Member, Mr. Cummings, for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    For the past 18 years, I have been deeply honored to serve 
as a member of the House of Representatives, representing 
700,000 people from the great State of Maryland.
    At the same time, I have been truly honored on every day of 
that 18 years to serve on this committee. I also have 
tremendous respect for this committee and the chief 
investigative body of the House that it is.
    For these reasons, I strongly support the authority to 
issue subpoenas, when necessary, to require people to provide 
information to fulfill our constitutional responsibilities, but 
I cannot and I will not support the abuse of this very powerful 
authority when it serves no legitimate purpose and where there 
is no evidence that a witness did anything wrong.
    These actions do not enhance our authority as a committee. 
They undermine it. They degrade it and they make us weaker. 
They distract and they lead to dysfunction and if you want to 
be effective and efficient in the things we do, then the last 
thing we need is distraction and dysfunction.
    Last Friday, Chairman Issa issued a unilateral subpoena to 
compel David Simas to testify here today. Mr. Simas is a senior 
advisor to the President of the United States of America and 
everyone on this committee knows the doctrine of separation of 
powers. As a matter of fact, it was first introduced to me in 
middle school.
    We do not simply haul in one of the President's top 
advisors at will. There must be a valid reason. There must be a 
predicate. There must be a justification, some evidence that 
this official engaged in some type of inappropriate activity. 
That foundation simply does not exist.
    On Friday, I wrote a letter to the Chairman formally 
objecting to the subpoena. I noted that he has already issued 
nearly 100 subpoenas without any debate or vote of this 
committee. This is more than all three previous chairmen 
combined in less than half the time.
    I also noted that his unilateral subpoenas began to spike 
last month after Speaker Boehner announced that he was taking 
the Benghazi investigation away from this committee and 
transferring it to the new Select Committee.
    For example, the Chairman issued a subpoena to the 
Secretary of State without even calling to see if he was 
available to testify. He later withdrew the subpoena.
    The Chairman also issued a subpoena to the IRS Commissioner 
in an attempt to hold the first public hearing on Lois Lerner's 
emails. That failed and the Committee on Ways and Means went 
first.
    Then on Friday, Chairman Issa proposed the latest subpoena. 
The subpoena was not based on anything Mr. Simas did. It was 
based on the fact that the White House violated the Hatch Act 
six years ago under the Bush Administration. The committee has 
identified no evidence that Mr. Simas or anyone in his office 
did anything inappropriate.
    In my letter, I asked Chairman Issa not to issue the 
subpoena. If he thought I was wrong, then I asked him to bring 
it before the committee for a vote, but he ignored my concerns. 
He did not reply to my letter, did not call a committee vote, 
he just issued the subpoena by himself.
    These actions directly contradict the pledges made by the 
Chairman during this committee's first meeting four years ago 
in 2011. I shall never forget that meeting. It started off with 
a prayer by our former Chairman Ed Towns. I would now like to 
play a video clip from that meeting so that we can remember 
back then and those who may not have been here they need to see 
this. Play the clip, please.
    [Video shown.]
    Mr. Cummings. Mr. Chairman, those were your words; they 
were not mine. I said something else in that hearing and I 
cited an old proverb. It basically said that if you want to go 
fast, go alone but, if you want to go far, go with others 
together. That was four years ago.
    When I raised concerns, you did not take them seriously. 
You did not ask other members if you were nuts or if you were 
wrong. When I asked for a vote, you ignored my request. Since 
you have been chairman, you have not held a single vote on even 
one of your nearly 100 subpoenas.
    One of the things that concerns me about this committee and 
this Congress is every two years when we raise our hands and 
swear to protect the citizens of our country, there is 
something that underlies that. That is that we have a duty to 
preserve this democracy that we inherited when we came upon 
this earth.
    Mr. Chairman, with the utmost respect, for this 
institution, because this is not about me, this is not about 
this committee. This is about generations yet unborn. I urge 
you to change course. This is supposed to be a deliberative 
body.
    The members of this committee, I will say it and say it 
until I die, the members, each one of them, represents 700,000 
plus people, 700,000. The members should have the chance to 
deliberate, especially on matters as serious as compelling the 
testimony of a senior presidential advisor.
    It is time for this committee to stop serving as the center 
stage for political theater and fulfill its responsibilities 
under the Constitution to conduct responsible oversight.
    Then the Chairman cited the Miers case and I am glad he 
did. In Miers, when the Bush Administration claimed executive 
privilege to prevent the White House Counsel, Harriet Miers, 
from testifying before the House Judiciary Committee in 2007 
and 2008, the committee had a legitimate investigation into the 
forced resignations of seven U.S. attorneys.
    The D.C. District Court explained, ``Congress moreover is 
acting pursuant to legitimate use of its investigative 
authority. Notwithstanding its best efforts, the committee has 
been unable to discover the underlying causes of the forced 
terminations of the U.S. attorneys. The committee has 
legitimate reasons to believe that Ms. Miers' testimony can 
remedy that deficiency. There is no evidence that the committee 
is merely seeking to harass Ms. Miers by calling her to 
testify.''
    Finally, in the Miers case, there are some distinguishing 
factors. Keep in mind Ms. Miers was no longer in the White 
House. Number two, remember there was a complaint to the Office 
of Special Counsel already, a complaint about the firing of 
U.S. attorneys. And number three, there had been negotiations 
and all parties declared there was an impasse.
    Here only one person declares that there is an impasse 
apparently and that is the Chairman.
    And so I end by saying this is our watch. I end by saying 
we are better than this. If we want to go far, let us go 
together. If we want to go fast, go alone.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    As our witness has chosen not to appear, we are unable to 
complete the full hearing. The committee stands in recess.
    [Whereupon, at 10:28 a.m., the committee was recessed.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
